          U.S. Department of Labor
          Office of Inspector General
                Office of Audit




                   Audit of
       Office of Federal Contract
        Compliance Programs
 Enforcement of Veterans’ Employment Rights
Audit Period: July 1, 1999 through June 30, 2001




                              AUDIT REPORT NO. 05-02-004-04-410
                              DATE ISSUED: March 29, 2002
                               TABLE OF CONTENTS



ACRONYMS/ABBREVIATIONS …………………………………………………………… ii

EXECUTIVE SUMMARY………………………………………………………………….…iii

BACKGROUND/PRINCIPAL CRITERIA…………………………………………………….1

OBJECTIVE…………………………………………………………………………………….3

SCOPE AND METHODOLOGY………………………………………………………………3

FINDINGS AND RECOMMENDATIONS

1.    Need for More Timely Investigations and Improved Feedback to Complainants……....5

         A. OFCCP Should Take Steps to Increase the Timeliness of Its Investigations….. 5

         B. OFCCP Needs to Provide Better Feedback to Complainants Prior to
             Completing Its Investigations………………………..……………………….8

2.    Need For More Educational Outreach to the Veteran Community……………………10

CONCLUSION……………………………………………………………………………..…13

GLOSSARY OF TERMS……………………………………………………………………..15

APPENDIX I – Veterans’ Survey Questionnaire……………………………………………..16

APPENDIX II – Summary of Responses from Veterans’ Survey Questionnaires…………...19

APPENDIX III- Agency Comments………………………………………………………… 23




                                            i
                ACRONYMS/ABBREVIATIONS


AAP      Affirmative Action Program

ADA      Americans with Disabilities Act

AO       Area Office

CFR      Code of Federal Regulations

EEOC     Equal Employment Opportunity Commission

FCCM     Federal Contract Compliance Manual

FO       Field Office

OFCCP    Office of Federal Contract Compliance Programs

OIG      Office of Inspector General

USC      United States Code

VEVRAA   Vietnam Era Veterans’ Readjustment Assistance Act




                                  ii
                                  EXECUTIVE SUMMARY

The Office of Inspector General conducted an audit of the Office of Federal Contract
Compliance Programs (OFCCP) and its enforcement of the Vietnam Era Veterans’ Readjustment
Assistance Act of 1974, as amended (VEVRAA). This audit was initiated because of a
congressional inquiry. Our objective was to determine whether OFCCP was fulfilling its
enforcement responsibilities regarding veterans’ complaints. We also reviewed case files to
ensure that OFCCP checked employers’ compliance with VEVRAA.

During the audit, we reviewed 85 complaint investigations and 34 compliance evaluation cases.
We also mailed 77 surveys to complainants and evaluated 36 survey responses. Based on the
data reviewed, we concluded that OFCCP has done an adequate job, overall, investigating
veterans’ complaints and evaluating compliance activities of employers that have contracts with
the Federal Government.

Our audit also identified the following areas in OFCCP’s VEVRAA enforcement program that
can be improved:

       •   Timeliness of Investigations and Feedback to Complainants

           We found that it took OFCCP an average of 316 days to provide complainants with
           the results of their complaints. We also found that OFCCP did not always contact
           complainants to discuss its findings prior to the conclusion of its investigation, in
           accordance with its Customer Service Plan.

       •   Outreach to the Veterans Community

           Our analysis of the complaints and the information provided in response to our survey
           indicates that veterans do not have a clear understanding of what is covered under
           VEVRAA. As a result, veterans often file complaints seeking redress for activities
           not covered by VEVRAA and are dissatisfied when OFCCP does not rule in their
           favor.

We were informed that there were several variables that hindered timely completion of the
complaint investigations, includ ing resources, workloads, establishing jurisdiction and
scheduling appropriate interviews. We were also informed that OFCCP discusses its findings
with complainants but the contacts are not always documented. In addition, we found that
VEVRAA requirements were not clearly understood by many veterans.




                                                iii
Recommendations

To improve customer satisfaction within the veterans community, we recommend that the
Assistant Secretary for the Employment Standards Administration ensure that OFCCP:

              develops methods to reduce the process time it takes to complete investigations
              under VEVRAA;

              affords each complainant an opportunity to discuss the findings in his/her case
              prior to the conclusion of the investigation;

              maintains adequate documentation regarding discussions with complainants
              regarding the results of the investigation; and

              expands outreach efforts to better educate veterans regarding their rights under
              VEVRAA.

Agency Response

ESA concurred with our recommendations and agreed to implement them. ESA’s response has
been incorporated into appropriate sections of the report, along with our comments. The
response is also included in its entirety as Appendix III of the report.




                                               iv
                          BACKGROUND/PRINCIPAL CRITERIA


The Office of Federal Cont ract Compliance Programs (OFCCP) is part of the U.S. Department of
Labor’s Employment Standards Administration. It has a national network of six regional offices,
each with district and area offices in major metropolitan areas. OFCCP’s responsibility is to
enforce the nation’s constitutional mandate of equal protection under the law pertaining to
Federal Government contractors. The enforcement of affirmative action and equal opportunity
policies on behalf of minorities, women, persons with disabilities, and covered veterans is the
primary mission of OFCCP.

OFCCP administers and enforces the following equal employment opportunity laws pertaining to
Federal Government contractors:

     Executive Order 11246, as amended, prohibits discrimination in employment on the basis
     of race, color, gender, religion, and national origin, and requires Federal contractors to take
     affirmative action to ensure that equal opportunity is provided in all aspects of
     employment.

     Section 503 of The Rehabilitation Act of 1973, as amended, prohibits discrimination in
     employment on the basis of disability and requires Federal contractors to take affirmative
     action to employ and advance in employment qualified individuals with disabilities.

     Section 4212 of The Vietnam Era Veterans’ Readjustment Assistance Act of 1974, as
     amended, prohibits employment discrimination and requires Federal contractors to take
     affirmative action to employ and advance in employment qualified covered veterans.

OFCCP also shares enforcement authority under Title I of the Americans with Disabilities Act of
1990 and the Immigration Reform and Control Act of 1986. The Immigration Reform and
Control Act requires employers to maintain certain records pertaining to the citizenship status of
new employees. These records are examined during the course of compliance reviews and
complaint investigations. Results are reported to the Immigration and Naturalization Service.
The Americans with Disabilities Act (ADA) establishes a clear and comprehensive prohibition of
discrimination on the basis of disability.

Title 38 United States Code (U.S.C.), Section 4212 prohibits discrimination and requires
affirmative action in all personnel practices for special disabled veterans and Vietnam Era
Veterans who served on active duty during a war or in a campaign or expedition for which a
campaign badge has been authorized. It applies to all firms that have a nonexempt Government
contract or subcontract of $25,000 or more. Title 38 U.S.C. 4212 is codified in Title 41 Code of
Federal Regulations (CFR) Chapter 60, Part 60-250.

OFCCP monitors compliance with veterans’ equal opportunity and affirmative action
requirements in accordance with 41 CFR Chapter 60, Part 60-250. Under this requirement, a
compliance officer examines the contractor’s affirmative action program and investigates



                                                 1
virtually all aspects of employment. OFCCP also investigates complaints filed by veterans
alleging discrimination on the basis of their veteran status.

When complaint investigations are completed, a notice of results of investigation is sent to the
complainant and the contractor. If no violations are found, a request for reconsideration can be
made within 30 days. When violations are found in either a complaint investigation or
compliance evaluation, OFCCP will attempt to negotiate a conciliation agreement with the
employer. If OFCCP finds a violation during its compliance evaluation or complaint
investigation and the violation has not been corrected in accordance with the conciliation
agreement, the case may be referred to the Solicitor of Labor with a recommendation for
enforcement proceedings.

The criteria used to plan and perform the audit and evaluate audit results include:

   •   Title 38 U.S.C. 4212 – Vietnam Era Veterans’ Readjustment Assistance Act;

   •   Title 41 CFR Part 60-250 – Affirmative Action and Nondiscrimination Obligations of
       Contractors and Subcontractors Regarding Special Disabled Veterans and Vietnam Era
       Veterans; and

   •   Federal Contract Compliance Manual (FCCM).




                                                 2
                                               OBJECTIVE

Our audit objective was to evaluate the adequacy and effectiveness of OFCCP’s enforcement of
veterans’ employment rights. This audit was initiated because of a congressional inquiry.
Specifically, we focused primarily on the congressional concern whether OFCCP was fulfilling
its enforcement responsibilities regarding veterans’ complaints. We also reviewed case files to
ensure that OFCCP checked employers’ compliance with VEVRAA.


                                    SCOPE AND METHODOLOGY

We performed an audit of OFCCP’s investigations, evaluations and enforcement actions under
VEVRAA. Our audit period was July 1, 1999 through June 30, 2001.

OFCCP’s activities under VEVRAA during our audit period and our audit sample were as
follows:


                                                                        OFCCP
     Investigations & Evaluations                                      VEVRAA         Audited   Percent
                                                                       Activities *   Sample    Sampled
    Closed Complaints:

        •   Closed by Regional Offices (lack of jurisdiction)                  182        20      11%


        •   Closed after being Investigated by District/Area Offices            442        82      19%
    Open Complaints                                                             74         3         4%
    Total Complaints at District/Area Offices                                  516        85       16%
    Closed Evaluations                                                       1,881        34         2%
    Open Evaluations                                                            31         0         0%
    Totals                                                                   2,610       139        5%

       * Data provided by OFCCP and not validated by OIG

We requested data from OFCCP covering the VEVRAA activities during the audit period.
Using the data, we attempted to identify the number of complaints filed and the number of
complaint investigations conducted. We also performed various analyses on the database to
detect duplicate complaints, multiple complaints and any unusual trends.

We found that the information provided did not clearly identify the district/area office that
conducted the investigations. Although we were informed that the district/area office could be
derived from the case number for each complaint investigation, we found that the case number
only identified the region to which the complaint was assigned. Therefore, we sorted the closed
complaint investigations by zip codes in order to identify which district/area office most likely
conducted the investigation.




                                                       3
We selected 11 of OFCCP’s 53 district/area offices for review. The specific offices selected for
review and the respective sample sizes are presented as follows:

                                                           Number of Cases Reviewed

                  District/Area Offices         Reason       Complaint      Compliance
                                                Selected   Investigations   Evaluations
                  Boston District Office           1              9              1
                  Washington District Office       1             11              2
                  Richmond District Office         1             10              3
                  Birmingham District Office       1              9              5
                  Orlando District Office          1              8              7
                  Detroit District Office          1             10              2
                  Los Angeles District Office      1             13              3
                  Santa Ana Area Office            2              3              0
                  San Diego District Office        2              1              4
                  San Jose District Office*        3              4              3
                  Seattle District Office          1              7              4
                  Total                                          85             34

               * One file had to be sent to the Regional Office from the Oakland District Office

                       1 – Large Number of Complaint Investigations
                       2 – Proximity to Larger District Office
                       3 – Class Action

We reviewed all closed complaint investigation cases and judgmentally sampled open complaint
investigations and closed compliance eva luation cases at each of the 11 district/area offices.

We also selected the Pacific and Midwest Regions to evaluate the complaint intake process and
regional oversight. The Pacific Region was selected because of the five district/area offices
included in our sample. The Midwest Region was selected due to the proximity of the audit
office. We judgmentally selected 10 complaints in each region (total of 20) that were closed
without being investigated (due to a lack of jurisdiction). We also sent survey questionnaires to
the 77 veterans that submitted the 85 complaints selected for review.

We interviewed key OFCCP staff, gained an understanding of management controls and
examined case files of complaint investigations and compliance evaluations done by OFCCP.
We did not, however, visit any government contactor’s location to examine their records or attest
to the extent of their implementation of affirmative action programs under VEVRAA. Instead,
we evaluated the effectiveness of OFCCP’s procedures for enforcing VEVRAA through
documentation maintained in its case files.

Our audit was performed in accordance with generally accepted auditing standards and the
Government Auditing Standards issued by the Comptroller General of the United States.


                                                    4
                              FINDINGS AND RECOMMENDATIONS

We audited the adequacy and effectiveness of OFCCP’s enforcement of veterans’ employment
rights by examining a total of 139 complaint investigation and compliance evaluation cases, and
evaluating 36 survey responses. Based on the cases we reviewed, we concluded that OFCCP has
done an adequate job, overall, investigating veterans’ complaints of employers that have
contracts with the Federal Government.

However, we noted the following:

    Ø OFCCP needs to be timelier when conducting the investigations and to give better
      feedback to complainants prior to completing its investigations; and

    Ø OFCCP needs to provide more educational outreach to the veteran community.


1. Need for More Timely Investigations and Improved Feedback to Complainants

Our audit revealed that OFCCP was not completing its investigations timely. Furthermore, we
discovered that OFCCP needs to provide better feedback to complainants prior to completing its
investigations.

        A.       OFCCP Should Take Steps to Increase the Timeliness of Its Investigations

We found that for 68 closed complaint investigations, 1 it took OFCCP over a year to respond to
many of the veterans’ complaints. OFCCP procedures for handling complaints involve intake
performed by the regions and investigations conducted by the district/area offices. The regions
determine if OFCCP has jurisdiction for the complaints prior to sending the complaints to the
district/area offices for investigation. Complaints averaged 316 days from the time they are filed
until the complainants received the results. In addition, 58 percent (21of 36) of the veterans who
responded to our survey indicated that they believed their investigations were not handled on a
timely basis.

Title 38 U.S.C. 4212, states in part:

        If any veteran . . . believes any contractor . . . has failed to comply or refuses to
        comply with the provisions of the contractor’s contract relating to the
        employment of veterans, the veteran may file a complaint with the Secretary of
        Labor, who shall promptly investigate such complaint. . . .




1
 Only 68 of the 85 investigated cases were analyzed because we excluded 3 cases that were open, 12 that were
withdrawn by the complainants or resolved internally, and 2 that were administratively closed.


                                                        5
The following chart outlines the time it took complainants to receive responses:

                                 OFCCP Responses To Complainants


                                                                                       25
                                                                                       20
                                                        21                  23         15
                                             13                                        10
                                                                  9
                                    2                                                  5
                         0
                                                                                       0
                        0-60 Days   61-120    121-180   181-240   241-300   Over 300
                                     Days      Days      Days      Days      Days



OFCCP’s regional offices have complaint intake responsibility. 2 Each regional office has the
flexibility to establish specific procedures, although they generally follow the same process. Our
audit showed that the intake process time ranged from 5 to 639 days before the complaints were
forwarded to the district/area offices for investigation.

During the initial processing stage, complaints are date stamped and given to the responsible
individual. The region determines timeliness, program jurisdiction, and if contract coverage
exists over the respondent. When evaluating timeliness, a determination is made whether the
date the complaint is received exceeds 300 days from the last date of discrimination. If so, a
letter is sent to the complainant closing out the complaint. The letter gives the complainant
information on appeal rights to the National Office (filing time can be extended if the
complainant can show good cause for not meeting the filing requirement). Complaints covered
under VEVRAA are reviewed for a signed Form CC-4 (Complaint of Discrimination in
Employment Under Federal Government Contracts), a DD-214 (Armed Forces of the United
States Report of Transfer or Discharge) and a nexus between the discrimination alleged and the
veteran status. Contract coverage is then determined.

If the complaint is missing information or if additional information is needed, a letter is sent to
the complainant with the specific request. If a response is not received within 2 weeks, a
followup letter is sent to the complainant. If the complainant does not respond within 60 days
from the date of the request, the complaint is closed. The complainant is then sent a letter
notifying him/her of the complaint closure.

If contract coverage cannot be established from resources available, a letter is sent to the
contractor. If a response is not received within 2 weeks, a followup letter is sent to the
contractor.

After the OFCCP regional office determines that a complaint meets the timeliness requirements,
program jurisdiction, and contract coverage, a file is sent to the district/area office for
investigation.

2
    The regions process complaints for Executive Order 11246, Section 503 of The Rehabilitation Act of 1973, Title
I of the Americans with Disabilities Act of 1990, the Immigration Reform and Control Act of 1986, and 38 U.S.C.
Section 4212.


                                                         6
District/area offices took an average of 223 days to complete the investigations. District/area
offices are responsible for conducting thorough and timely investigations. As part of their initial
preparation, district/area offices send letters to complainants and contractors, and develop
investigative plans that outline major actions to be taken. Attempts are made to schedule an
initial interview with the complainant and set up an onsite visit (when possible) with the
contractor. During the investigative process, district/area offices examine evidence furnished by
the complainant and the contractor, and interview appropriate witnesses. Upon completion of
the investigation, the facts gathered are analyzed and an investigative report is written. Once a
conclusion is reached, the district/area office sends the complainant and the contractor a Notice
of Results of Investigation.

The following graph depicts the elapsed time complaints were at the regions and the district/area
offices.


                                Complaint Processing and Investigations

              25
                                         22
              20               19                       20
                                           16                                         16
              15
                     12
              10                                   9              8
                                                                              6
               5
                                    2                         2           2       2
               0          0
                   0-30 Days   31-60    61-120    121-180    181-240   241-300 Over 300
                               Days      Days      Days       Days      Days    Days
                     Complaints Processed by the Region
                     Complaints Investigated by the District/Area Offices




OFCCP has set forth guidelines in its compliance manual for the district/area offices to complete
investigations.

Federal Contract Compliance Manual, Chapter 6-D-03, states:

           The AO/FO must complete the investigation within 60 days after receiving
           the complaint from the RO, unless an extension of this period is granted by
           the Assistant Regional Administrator (ARA). . . .
Although 74 percent of the cases had documented approval in the case files, only two
investigations were completed within the 60-day time frame established in OFCCP’s compliance
manual. Regional and district/area office officials explained that it is difficult to establish
jurisdiction and complete investigations timely because of impediments, including resources,
workload, and difficulties reaching the complainants to gather additional information or


                                                    7
scheduling interviews. The problem is compounded by untimely responses from employers and
the numerous witnesses that have to be interviewed. Nevertheless, the length of time between
receiving the complaints and responding to complainants needs to be improved.

    Recommendation

We recommend that the Assistant Secretary for Employment Standards ensure that OFCCP
develops methods to reduce the process time it takes to complete investigations and respond to
the complainants.

   Agency Response

The Acting Assistant Secretary for Employment Standards concurred with the recommendation
and stated that OFCCP will develop uniform procedures with a goal of processing complaints
within a 180-day timeframe. Furthermore, OFCCP will modify the FCCM to address timeliness
for complaint intake and processing.

 However, ESA’s response noted that six of the 85 cases in our sample involved highly unusual
circumstances. ESA stated that the six cases were not representative and believed that a
calculation of median time to complete an investigation would have presented a more complete
picture of the true distribution of OFCCP’s cases.

   OIG Conclusion

This recommendation is resolved and open. To close this recommendation, ESA needs to
provide documentation regarding the steps taken to improve complete investigations and respond
to the complainants.



   B.    OFCCP Needs to Provide Better Feedback to Complainants Prior to Completing
         Its Investigations

OFCCP developed a Customer Service Plan that outlines various actions the office will
undertake to accomplish its mission and better serve its customers. Among other things,
OFCCP’s Customer Service Plan provides for discussing its findings with the complainants
before concluding an investigation.

OFCCP’s Customer Service Plan states in part that:

           If you are an applicant or employee filing a discrimination complaint, you
           can expect OFCCP to:




                                                8
               . . . Provide you an opportunity to discuss OFCCP’s findings prior to the
               conclusion of the investigation and an opportunity to provide additional
               information to support your complaint. . . .

Our review of closed complaint investigations revealed that most district/area offices were not
complying with the Customer Service Plan. We reviewed 68 closed complaint investigations
and found that in 50 cases, OFCCP either did not contact or did not document the contact with
the complainants regarding discussions on the results of the findings prior to concluding the
investigation. This was reinforced by our survey responses from complainants where the
majority of veterans indicated they were not contacted by OFCCP prior to concluding its
investigation.

Some district/area office officials were unaware of the Customer Service Plan, and others did not
place much emphasis on the Plan because it was not a regulatory requirement. Some district/area
office officials acknowledged the lack of evidence in the file, but believed that complainants
were contacted. One district office official indicated that there is constant interaction with
complainants and the complainants are always aware of the status. However, district/area office
officials indicated that greater emphasis would be placed on documentation.

In the Customer Service Plan, OFCCP made a commitment to contact complainants to discuss
the results of its findings. We believe that the discussion should include witnesses interviewed,
evidence used to support or dispute any allegations, and reasons for not interviewing witnesses
or discounting certain evidence.

When contact is not made, OFCCP not only fails to fulfill its commitment, but complainants are
not afforded the opportunity to discuss the findings or provide additional support on their behalf.
The absence of such discussions can often leave complainants with doubts as to whether their
complaints were thoroughly investigated. More importantly, when results are not discussed, it
increases the likelihood of an appeal resulting in the use of additional OFCCP resources to
address the same issues.

    Recommendations

We recommend that the Assistant Secretary for Employment Standards ensure that OFCCP:

    •   implements procedures that ensure each complainant is afforded an opportunity to
        discuss the findings in his/her case prior to the conclusion of the investigation; and

    •   ensures that the files contain adequate documentation to support the discussions.




                                                 9
   Agency Comments

The Acting Assistant Secretary for Employment Standards concurred with these
recommendations and stated that OFCCP will modify its FCCM to address discussing its
findings with complainants and maintaining adequate documentation to support the discussions.
OFCCP will also address the issue in its annual compliance officers training.

   OIG Conclusion

This recommendation is resolved and open. To close this recommendation, ESA needs to
provide documentation regarding the steps taken to improve complete investigations and respond
to the complainants.


   2. Need for More Educational Outreach to the Veteran Community

OFCCP issues posters, flyers and other informational pamphlets that outline the laws the agency
enforces including VEVRAA.

For the period July 1, 1999 through June 30, 2001, OFCCP received and investigated 442
complaints under VEVRAA regarding violations of employment rights. Of the 442 complaints
filed, OFCCP concluded that 8 cases (1.8 percent) had violations. There were 16 violations
found in the 8 cases, which included hiring, job assignment, job benefit, handicap
accommodation and retaliation.

In an effort to determine why the number of violations cited by OFCCP was small in proportion
to the number of complaints filed, we analyzed veterans’ complaints in our sample. We found
that, in most cases, a nexus between the complainants’ veteran status and the adverse action
could not be established by OFCCP. For example, one veteran’s complaint stated, “I feel that a
managerial selection committee with a bias for advancing females within city government passed
me over for this position.” OFCCP found no clear evidence that the complainant was not
promoted because of his veteran status.

In another example, a veteran filed a complaint when he was not hired after being scheduled for
an interview during a job fair. After arriving at the company, the complainant became
discontent when there was confusion about when his interview was scheduled. Because the
complainant had to wait several hours before he was allowed to interview, he became
argumentative and was asked to leave. The complainant alleged he was harassed and denied
employment because of his veteran status. OFCCP found that this case lacked sufficient
evidence to support a connection between the allegation and the complainant veteran’s status.

Additionally, we wanted to determine if some veterans filed multiple complaints because they
believed their employment rights were violated based on their veteran status. Therefore, we
analyzed the 442 cases to ascertain the number of veterans who filed multiple complaints. We



                                               10
found that only 7 veterans filed multiple complaints, which included one veteran who filed 63
complaints.

Some Veterans Do Not Have a Clear Understanding of What is Covered Under VEVRAA.
We determined that some complainants believe VEVRAA offers preferential or special treatment
in promotion and other employment opportunities. Our review of the 85 veteran complaints
showed that 30 veterans filed complaints because they believed that under VEVRAA, their
veteran status entitled them to special consideration in hiring, promotion, and lay-offs.

Title 38 U.S.C. 4212 (VEVRAA), states in part that:

              . . . party contracting with the United States shall take affirmative action
              to employ and advance in employment qualified special disabled
              veterans, veterans of the Vietnam era and any other veterans who served
              on active duty during a war or in a campaign or expedition for which a
              campaign badge has been authorized. . . . (1) each such contractor
              undertake in such contract to list immediately with the appropriate local
              employment service office all of its employment openings
               . . . (2) each such local office shall give such veterans priority in referral to such
              employment openings. . . .

Title 41 CFR Part 60-250 sets forth standards for compliance with the VEVRAA. Subpart B
addresses discrimination and Subpart C addresses the Affirmative Action Program.

Subpart C states:

              §60-250.40(a) . . . every Government contractor that has 50 or more employees
              and a contract of $50,000 or more. (b) . . . prepare and maintain an affirmative
              action program at each establishment. . . . shall set forth the contractor's policies
              and procedures in accordance. . . .

              §60-250.41. The full affirmative action program shall be available to
              any employee or applicant for employment for inspection upon request. .
              ..

              §60-250.42. The contractor shall invite applicants to inform the
              contractor whether the applicant believes that he or she is a special
              disabled veteran who may be covered by the Act and wishes to benefit
              under the affirmative action program. . . .

              §60-250.43. . . . contractors shall not discriminate . . . and shall take
              affirmative action to employ and advance in employment qualified
              special disabled veterans and veterans of the Vietnam era at all levels of
              employment, including the executive level. . . .

              §60-250.44. Acceptable affirmative action programs shall contain . . .



                                                 11
                  (a) Policy statement.
                              . . . the policy should state, among other things, that the
                              contractor will: recruit, hire, train and promote persons in
                              all job titles, and ensure that all other personnel actions
                              are administered, without regard to special disabled
                              veteran or Vietnam era veteran status; and ensure that all
                              employment decisions are based only on valid job
                              requirements. . . .
                  (b) Review of personnel processes.
                              . . . contractor shall ensure that its personnel processes
                              provide for careful, thorough, and systematic
                              consideration of the job qualifications of applicants and
                              employees who are known special disabled veterans or
                              veterans of the Vietnam era for job vacancies filled either
                              by hiring or promotion, and for all training opportunities
                              offered or available.
                  (c) Physical and mental qualifications.
                  (d) Reasonable accommodation to physical and mental limitations.
                  (e) Harassment.
                  (f) External dissemination of policy, outreach and positive
                      recruitment.
                  (g) Internal dissemination of policy.
                  (h) Audit and reporting system.
                  (i) Responsibility for implementation.
                  (j) Training.

Many veterans that filed complaints interpreted the wording “employ and advance in
employment,” cited in the Act, to be more proactive than what is set forth in the implementing
regulations. Other veterans believe that VEVRAA carries the same goals as Federal laws that
apply to other protected groups. For example, one Vietnam era veteran stated, “They did not
give me preference [sic] as a disabled vet when I requested a transfer to another job. . . . ”
Another veteran wrote, “While I make no claim of veteran discrimination in the decision to
select me for layoff, I do contend that the company took no affirmative action to find another
position for me prior to or as a result of the layoff; there were many positions held by non-
veterans for which I could have qualified based on education, training and experience.” Yet
another veteran wrote, “[Company Name] work was a Federal job and according to the law,
Veterans should have top priority.”

The misunderstanding can often lead to false expectations concerning employment rights and
contribute to the number of unwarranted complaints filed by veterans. Moreover, when some
veterans learned that there was no preference, they became dismayed about the law and the
agency responsible for enforcement.

To alleviate some of the misunderstanding, OFCCP should enhance its outreach efforts and
undertake measures to advance the awareness of coverage under VEVRAA. Outreach could



                                                12
include issuing fact sheets that explain in simple details what employers have to do to comply
with the Act, and what veterans should expect in terms of employment rights.

We believe that OFCCP should make a concentrated effort to inform veterans of the precise
coverage under VEVRAA or veterans will continue to file complaints expecting unrealistic
results.

    Recommendation

We recommend that the Assistant Secretary for Employment Standards ensure that OFCCP
increases its outreach efforts to better educate veterans of their rights under the law by exploring
new, innovative approaches utilizing the latest technology and expanding its current efforts to
reach veterans groups and state workforce agencies.

    Agency Comments

The Acting Assistant Secretary for Employment Standards concurred with this finding and
committed to engaging in outreach, education, and compliance assistance to better explain
veteran rights to individuals and various veterans’ organizations.



                                         CONCLUSION

We sent surveys to those veterans in our sample whose complaints were investigated and whose
files we reviewed in an attempt to get the views of veterans on their experience with OFCCP and
to evaluate their satisfaction with the agency. We sent 77 survey questionnaires to veterans
requesting that they rate their experiences with OFCCP on a scale ranging from 1 (Poor) to 10
(Excellent).

Most responses were generally unfavorable toward OFCCP and many veterans expressed
discontent with its investigations. We received 38 responses, of which 36 had responded in a
manner that allowed us to tabulate the results. Seventy-two percent of the veterans rated their
satisfaction with OFCCP’s handling of their complaints as poor (3 or less). Only 16 percent of
the veterans gave OFCCP a high satisfaction rating (score of 8 or above). Although we realize
the responses received may not be fully representative, we believe that the responses are
indicative of veteran dissatisfaction. (See Appendix II.)




                                                 13
The following chart summarizes information obtained from the survey responses:


  Not Satisfied w/Action Taken
                                                                  27
      Regarding Complaint

   Believed Complaint Was Not
                                                                       29        Survey Responses
    Thoroughly Investigated

   Believed Complaint Was Not
                                                        21
        Completed Timely

                                 0   5   10   15   20        25    30       35



Responding to our survey, some veterans indicated that they believe OFCCP is pro-business and
has a tendency to place more credence on information obtained from the contractors. Still others
expressed disenchantment and faulted OFCCP for not considering all relevant evidence, not
interviewing all witnesses, and not addressing all the issues in their complaints.

We believe that OFCCP’s satisfaction rating with the veterans will significantly improve when
OFCCP reduces the complaint process time, contacts the complainants to discuss the findings
prior to the conclusion of the investigation, and increases its outreach efforts to better educate the
veterans of their rights under the law.

Overall, we believe that OFCCP is doing an adequate job of investigating veterans’ complaints
within the guidelines set forth in the implementing regulations.




                                                   14
                            GLOSSARY OF TERMS

Complaint          A written charge filed with OFCCP by an employee, former
                   employee, applicant for employment or by a third party alleging
                   specific violations of 38 U.S.C. §4212.

Compliance         Meeting the requirements and obligations imposed by 38 U.S.C.
                   §4212, and its implementing regulations.

Conciliation       A binding written agreement between a contractor and OFCCP that
Agreement          details specific contractor commitments to resolve the alleged
                   violations set forth in the agreement.

Special Disabled   A veteran who: (a) is entitled to compensation (or who, but for the
Veteran            receipt of military retirement pay, would be entitled to
                   compensation) under laws administered by the Department of
                   Veterans Affairs for a disability that is (i) rated at 30 percent or
                   more, or (ii) rated at 10 or 20 percent in the case of a veteran who
                   has been determined under Section 1506 of the Veterans'
                   Rehabilitation and Education Act Amendments of 1980 to have a
                   serious employment handicap; or (b) was discharged or released
                   from active duty because of a service-connected disability.

Veteran of the     A person who: (a) served on active duty for more than 180 days,
Vietnam Era        any part of which occurred between August 5, 1964 and May 7,
                   1975, and was discharged or released there- from with other than a
                   dishonorable discharge; or (b) was discharged or released from
                   active duty for a service-connected disability if any part of such
                   active duty was performed between August 5, 1964 and May 7,
                   1975.




                                             15
Appendix I: Veterans’ Survey Questionnaire



                             U.S. Department of Labor
            Office of Inspector General/Chicago Regional Audit Office
          Audit of OFCCP’s Enforcement of Veterans’ Employment Rights

OFCCP records show the following information regarding a complaint filed by you against the
below listed contractor. Please complete the questionnaire and return it in the enclosed self-
addressed envelope as soon as possible.

1. Complainant’s Name:

2. Date of Birth:

3. Sex:

4. Contractor’s Name:

5. Date Complaint Filed:

6. Violations You Identified as Committed by the Contractor Include:




PLEASE COMPLETE THE FOLLOWING QUESTIONS

7. Nationality/Race:
      White                Black/African American                 Asian
      American Indian or Alaskan Native
      Hispanic or Latino
      Native Hawaiian or Other Pacific Islander
      Other _____________________________

8. Veteran Status:

      Special Disabled Veteran            Vietnam Era Veteran
      Other protected Veteran (Specify conflict):




                                               16
Appendix I: Veterans’ Survey Questionnaire



9. How did you become aware that the OFCCP is the enforcement entity for the
   employment rights of veterans employed with federal contractors?

   a.        Posted at contractor’s facility.
   b.        Local Veterans’ Employment Representative.
   c.        Department of Veterans Affairs.
   d.        Local Veterans’ Group.
   e.        Employment Service Agency.
   f.        Other.

10. Did you originally file your complaint with the OFCCP?
    a. Yes         b.     No

          If YES, go to number 11.

          If NO, what agency did you file your complaint with?

   How did your complaint reach OFCCP? (After responding, go to number 14)

11. How did you file your complaint?

   a.     Correspondence
   b.     Telephone
   c.     Form CC-4 (Complaint of Discrimination in Employment Under Federal Government
          Contracts)

12. Did you encounter difficulties filing your complaint?
    a. Yes       b.   No

   If YES, explain:

13. Did you contact OFCCP for any assistance in preparing your complaint?
    a. Yes       b.   No

  If YES, how was the quality of its assistance? [ Please give a rating between 1 (Poor) and 10
   (Excellent)]




                                             17
Appendix I: Veterans’ Survey Questionnaire



14. How did OFCCP keep you informed of the progress of your complaint investigation?

   a.        Contacted periodically.
   b.        Contacted frequently.
   c.        Received a letter when the complaint was filed and when the investigation
             was completed.
   d.        Did not have any contact with OFCCP.
   e.        Other

15. Did OFCCP contact you to discuss its finding prior to issuing the results of the
    investigation?
    a. Yes         b. No

16. How would you rate OFCCP’s enforcement procedures in handling your
    complaint? [Please give a rating between 1 (Poor) and 10 ( Excellent)]


17. How satisfied were you with OFCCP handling of your complaint? [ Please give a rating
    between 1 (Poor) and 10 ( Excellent)]


18. Do you feel that your complaint was handled in a timely basis?
    a. Yes        b.   No


19. Do you feel that your complaint was thoroughly investigated ?
    a.   Yes      b.   No

20. Were you satisfied with the actions that were taken regarding your complaint?
    a.  Yes      b.    No

    If NO, explain:


21. Do you have any comments and/or recommendations on how OFCCP should
    improve their enforcement procedures?




                                             18
Appendix II: Summary of Responses from Veterans’ Survey Questionnaires


Note: This chart summarizes the results of 36 veterans that addressed the questions in the survey.
Two other veterans replied. One veteran indicated that the survey was inadequate and provided
what he thought should be our focus. The other veteran’s reply was in the form of a complaint.
Percentages are based on the 36 responses.


                                                                     Percentage
                                                                     of Total
                                                                     Responses
Questions                                                  Responses (Rounded)
3.Sex:

Male                                                              35         97%
Female                                                             1          3%
7. Nationality/Race:

White                                                             29         81%
Black                                                              7         19%
8. Veteran Status:

Vietnam Era Veterans                                              30         83%
Special Disabled Veterans                                          5         14%
Other Protected Veterans (Navy Retired)                            1          3%
9. How did you become aware that the OFCCP is the
enforcement entity for the employment rights of
veterans employed with federal contractors?

   Posted at Contractor’s Facility                                11         31%
   Local Veterans’ Employment Representative                       4         11%
   Department of Veterans Affairs                                  2          6%
   Local Veterans’ Group                                           3          8%
   Other                                                          16         44%
10. Did you originally file your complaint with the
OFCCP?

   Yes                                                            28         78%
   No                                                              8         22%




                                               19
Appendix II: Summary of Responses from Veterans’ Survey Questionnaires


                                                                Percentage
                                                                of Total
                                                                Responses
Questions                                             Responses (Rounded)
11. How did you file your complaint?

   Correspondence                                           14        39%
   Telephone                                                 1         3%
   Form CC-4                                                21        58%
12. Did you encounter difficulties filing your
Complaint?

   Yes                                                      12        33%
   No                                                       24        67%
13. Did you contact OFCCP for any assistance in
preparing your complaint?

   Yes                                                      12        33%
   No                                                       24        67%

If YES, how was the quality of its assistance?

   Rating of –1                                              1         8%
   Rating of 0                                               2        17%
   Rating of 1                                               2        17%
   Rating of 2                                               1         8%
   Rating of 4                                               1         8%
   Rating of 5                                               2        17%
   Rating of 7                                               1         8%
   Rating of 10                                              2        17%
14. How did OFCCP keep you informed of the
progress of your complaint investigation?

   Contacted Periodically                                   11        31%
   Contacted Frequently                                      4        11%
   Received Letter                                          12        33%
   Other                                                     9        25%
15. Did OFCCP contact you to discuss its findings
prior to issuing the results of the investigation?

   Yes                                                       9        25%
   No                                                       27        75%


                                                 20
Appendix II: Summary of Responses from Veterans’ Survey Questionnaires


                                                                Percentage
                                                                of Total
                                                                Responses
Questions                                             Responses (Rounded)
16. How would you rate OFCCP’s enforcement
procedures in handling your complaint?

   Rating of –10                                             2         6%
   Rating of -1                                              2         6%
   Rating of 0                                               1         3%
   Rating of 1                                              18        50%
   Rating of 2                                               1         3%
   Rating of 3                                               2         6%
   Rating of 4                                               1         3%
   Rating of 5                                               2         6%
   Rating of 6                                               1         3%
   Rating of 8                                               3         8%
   Rating of 10                                              3         8%
17. How satisfied were you with OFCCP’s handling of
your complaint?

   Rating of –10                                             2         6%
   Rating of -1                                              1         3%
   Rating of 0                                               1         3%
   Rating of 1                                              18        50%
   Rating of 2                                               2         6%
   Rating of 3                                               2         6%
   Rating of 4                                               1         3%
   Rating of 5                                               2         6%
   Rating of 6                                               1         3%
   Rating of 8                                               2         6%
   Rating of 9                                               1         3%
   Rating of 10                                              3         8%
18 Do you feel that your complaint was handled in a
timely manner?

  Yes                                                       15        42%
  No                                                        21        58%




                                           21
Appendix II: Summary of Responses from Veterans’ Survey Questionnaires


                                                                    Percentage
                                                                    of Total
                                                                    Responses
Questions                                                 Responses (Rounded)
19. Do you feel that your complaint was thoroughly
investigated?

   Yes                                                           7        19%
   No                                                           29        81%
20. Were you satisfied with the actions that were taken
regarding your complaint?

  Yes                                                            9        25%
  No                                                            27        75%




                                            22
                  Appendix III




AGENCY COMMENTS




      23
24
25
26
